<html>
<title> - THE NEW STRATEGIC FRAMEWORK: IMPLICATIONS FOR U.S. SECURITY</title>
<body><pre>[Senate Hearing 107-486]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-486

       THE NEW STRATEGIC FRAMEWORK: IMPLICATIONS FOR U.S. SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


80-082              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    30
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     4
Perry, Hon. William J., former Secretary of Defense, Michael and 
  Barbara Berberian Professor, Stanford University, Stanford, CA.     8
Weinberger, Hon. Caspar W., former Secretary of Defense, 
  Washington, DC.................................................     6

                                 (iii)

  

 
      THE NEW STRATEGIC FRAMEWORK: IMPLICATIONS FOR U.S. SECURITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Bill Nelson, Lugar, Hagel, and 
Allen.
    The Chairman. The hearing will come to order. I am 
delighted today that we have the second of what will be a 
series of hearings on the future of American foreign policy, 
and two of the most distinguished men who served in this town 
and are still listened to closely by many.
    Just over a decade ago the Soviet Union collapsed and, with 
that, the world view that had sustained us for half a century 
was basically swept away. No longer did any country seek world 
domination. No longer did we face the threat of 
totalitarianism, and for the last 10 years, though, we faced a 
new, or newly important challenges. That is, managing the 
transition from the cold war's nuclear stalemate to the more 
stable force posture with less reliance upon nuclear weapons, 
preventing the spread of weapons of mass destruction and long-
range ballistic missiles, rooting out terrorism and the 
conditions that lead to it, and stemming the international 
narcotics trade, combating the spread of HIV/AIDS and other 
infectious diseases, including, I might add, those that might 
actually be biological weapons, and reducing the gap between 
the haves and the have-nots which might otherwise breed wars, 
terrorism, and destabilize population flows.
    In a sense, every once in a while I say to the two 
Secretaries I yearn for the good old days every once in a while 
where things were very dangerous but, in a sense, very stable. 
Now the world may be changing again. The attacks of September 
11 have made international terrorism, or at least radical 
Islamic terrorism, an enemy that must be defeated. The 
aspirations of al-Qaeda for weapons of mass destruction and the 
anthrax attacks this fall have made nonproliferation a vital 
theater in that war on terrorism. Our world and our thinking 
are still in transition, and we still have much to learn about 
where we are headed.
    To help us get some perspective, the Foreign Relations 
Committee is holding a series of hearings with distinguished 
witnesses on, ``securing America's future.'' We began with the 
Secretary of State yesterday, and tomorrow we hear from Sandy 
Burger and Bill Kristol and retired general George Joulwan 
regarding the war on terrorism. Later hearings will feature 
Madeleine Albright, Robert Rubin, and many others.
    Today's hearing features two former Secretaries of Defense, 
very distinguished men. It was preceded by a briefing for the 
media and staff by three Carnegie Endowment staff members, and 
I want to thank them for arranging and participating in that 
event. Professor William Perry, former Secretary of Defense, is 
now back at Stanford University, and he has brought unusual 
clarity to the post of cold war strategic policy during the 
first Clinton administration. I would guess that no Secretary 
before or since has used a reporter's question to explain to 
the American public what circular area probable, or CAP, 
actually means.
    Then Bill Perry co-authored with Ash Carter a tremendously 
thoughtful book on the threats we face entitled, ``Preventive 
Defense, A New Security Strategy for America.'' One of the 
questions, and generic questions we have to ask today is, does 
9/11 warrant a revised edition of that book, or is it still 
applicable, and how? Secretary Perry hopefully will shed some 
light on that for us shortly.
    And former Secretary of Defense Caspar Weinberger was 
Secretary of Defense under President Reagan, when a major 
buildup of our conventional and nuclear armed forces was 
followed by renewed emphasis on arms control, leading to the 
first START treaty. President Reagan stunned the world at 
Reykjavik when he said, ``we should rid the world of nuclear 
weapons,'' but he also popularized the old Russian saying, 
``trust but verify.''
    Secretary Weinberger can speak to that decision and how it 
plays out today. As long-time CEO of Forbes, Inc., he can also 
speak to our nuclear force posture in both strategic and 
economic terms.
    I look forward to hearing our witnesses' testimony and 
asking them some questions that I believe are the difficult 
questions we up here face today as part of the process of 
making policy. What are the threats that America faces, and how 
should we deal with them? Are they different from what they 
were just on the 10th of September, and not just how, not just 
in the short run how we deal with them, but over the long haul.
    What role should nuclear weapons play in meeting those 
threats? Russia's President Putin's reaction to President 
Bush's declaration of the intent to withdraw from the ABM 
treaty was muted, even cooperative. What will it take for that 
relationship to endure, and how does it blossom? Does this 
affect it negatively or positively? Should we seek further arms 
reduction treaties, or should we stay unfettered, even if the 
price is to leave Russia unfettered and its nuclear force 
numbers unverifiable?
    Having a ban on the START II treaty, should we still try to 
get the Russians and China to do without MIRVd ICBMs, or is 
crisis stability now an irrelevant concept in the post cold 
war? As Secretary of State Powell said yesterday, it does not 
matter. It is up to the Russians, whatever they need, whatever 
they want is fine by us, and we will decide what we want, so 
the whole notion of crisis stability, is it still a relevant 
concept? If we build a national missile defense, should it be 
one that threatens China's nuclear deterrent, or should we 
choose an architecture that recognizes the impact on China's 
nuclear weapons, and if we do not, if it is viewed by the 
Chinese as threatening them, is it likely to have an impact on 
the new arms race in Asia and in the subcontinent?
    We do not know the answer to these questions, but I am 
looking forward to some insight from our witnesses, and how 
serious is the risk of an aberrant reaction by China and then 
by India, Pakistan, and other Asian countries in response if we 
build a national defense that the Chinese feel threatens their 
deterrent capability?
    How should we deal with North Korea? Is the so-called Perry 
process dead, or can it be revived, or is it still able to 
function?
    How can we stop Russia and Chinese proliferation of weapons 
of mass destruction, or long-range missile materials and 
technology? Can we secure Russia's cooperation with diplomatic 
and economic initiatives and, if so, what will the price be? Is 
it a price worth paying?
    As I said, these are tough questions for all of us, but 
today's witnesses are men of unusual breadth and experience. 
Gentlemen, in this time of both peril and opportunity you have 
my attention, the committee's attention and, I suspect, the 
Nation's attention, but first a word from a man who has already 
shaped many of the issues that we will discuss today, the 
acting chairman for the day, or acting ranking member for the 
day, former chairman of this committee and a person of unusual 
insight and depth, in my view, on these issues, the Senator 
from Indiana, Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I 
congratulate you again on the schedule of comprehensive 
hearings covering most of the major foreign policy issues, and 
your success in obtaining such quality witnesses, as evidenced 
by our two guests today. Senator Helms is ill, and he has asked 
me to introduce into the record, which I would like to do, his 
statement, without objection.
    There are some important parts of Senator Helms' statement 
which I would like to quote, because I think they are a good 
preface for the hearing, and Senator Helms in his statement 
says: ``President Bush's policy regarding Russia reflects this 
change and moves the United States away from a concept of 
mutually assured destruction, which was based on the 
identification of one government, the Soviet Union, as our 
mortal enemy. That was true then, but no more. The President's 
strategy envisions a new relationship with Russia, anticipates 
a broad range of new threats, and proposes to build a force 
employing a variety of nuclear and conventional capabilities to 
defer and defend against those foes.''
    Senator Helms progresses on to suggest that: ``The United 
States is obliged to treat Russia on the basis of shared goals 
and interests, not nuclear arms control, as we already do with 
France and the United Kingdom, two other nuclear powers,'' and 
he says in ``our relationship with Russia I think we must move 
in this direction,'' but he cautions also that ``Russia must 
stop its proliferation to Iran, the human rights abuses in 
Chechnya, its inclination to claim new spheres of influence, 
and move toward the rule of law, and a flourishing democracy.''
    Now, Senator Helms also would have raised as his first 
question a question that I will pose now and ask that it also 
be inserted in the record, and perhaps in your testimony.
    Secretary Weinberger. ``When the Reagan administration 
negotiated the START I treaty, the Soviet threat determined the 
United States' nuclear force requirements, but that is no 
longer the case, and since the United States reductions are not 
linked to any reciprocal cuts by Moscow, would you agree that 
it no longer makes sense to codify our nuclear reductions in 
the cold war era treaties with Russia, particularly since they 
are inherently costly, time-consuming, and adversarial, and 
would you also agree that it is possible for more transparency 
and predictability through less formal arrangements, much like 
the agreements the United States has with the OSCE and various 
multilateral export control regimes?''
    I ask not that you answer that immediately, but obviously 
that is one of the arguments that we will have today, and 
Senator Helms has posed it in a concise manner.
    Let me just say what a pleasure it is to be with these two 
distinguished Secretaries. I remember so well visiting with Cap 
Weinberger clear back in the days in which he was involved in 
local government and state government in California, and then 
his distinguished career in Washington in so many capacities, 
and I appreciate that friendship over the years.
    And Bill Perry was on the initial flight of the Nunn-Lugar 
group. He was then at Stanford, but he joined Sam Nunn and I on 
a trip to Russia 10 years ago, and offered great vision and 
advice. Of course, we had no idea he would become Secretary of 
Defense, but he did.
    In Ukraine, he planted sunflowers where hundreds of acres 
of cables linking up nuclear sites where warheads sat atop 
intercontinental ballistic missiles aimed at the United States 
of America. Under Secretary Perry's leadership in the 
Cooperative Threat Reduction program came into its own with 
American businesses providing great support and expertise to 
dismantle weapons that threatened American security in a 
transparent way, so that the American people knew what was 
being spent and for what. He is a tremendous leader of the 
Pentagon and the Nunn-Lugar and I appreciate that very much, as 
he knows, but I simply wanted for the record to make that point 
clear.
    Again, I look forward to hearing from both of you, as do 
the members of our committee. Thank you, Mr. Chairman.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    This committee is honored and grateful that Secretaries Weinberger 
and Perry have agreed to meet with us this morning to talk about the 
new relationship between the United States and Russia, and the new 
strategic framework that should define it.
    Russia today is not the same Russia of the Cold War. The government 
in Moscow is no longer a threat to the United States. The evil empire 
of the Soviet Union--as President Reagan justifiably called it--no 
longer exists, and it is often that our two countries have almost 
identical interests around the world.
    President Bush's policy regarding Russia reflects this change and 
moves the United States away from the concept of ``mutually assured 
destruction,'' which was based on the identification of one 
government--the Soviet Union--as our mortal enemy. That was true then, 
but no more.
    The President's strategy envisions a new relationship with Russia. 
It anticipates a broad range of new threats, and it proposes to build a 
force employing a variety of nuclear and conventional capabilities to 
deter and defend against these foes.
    As such, the President is unquestionably justified in saying that 
the U.S. and Russia must move beyond the adversarial diplomacy, 
outdated strategic concepts, and cumbersome arms control agreements of 
the Cold War. This legacy of confrontation and mistrust is sustained 
through structures and procedures that continue to hinder, rather than 
improve, our relations.
    That is why the President's plan to cut nuclear weapons by nearly 
two-thirds over the next ten years should not be delayed by lengthy 
negotiations, formal treaties, and other activities that keep the U.S. 
and Russia hog tied in a bygone era.
    There are those, of course, who believe that arms control 
agreements alone are enough to ensure our security and promote 
stability. There are voices clamoring that only through formal treaties 
and high-level summits can the United States uphold Moscow's self 
esteem, ensure stability, prevent arms races, and hold at bay Russian 
belligerence.
    I don't agree with that kind of day dreaming. The United States is, 
I think, obliged to treat Russia on the basis of shared goals and 
interests--not nuclear arms control--much as we already do with France 
and the United Kingdom, two other nuclear powers. Our relationship with 
Russia must, I think, move in this direction.
    That is why I was not surprised by Moscow's relative indifference 
when President Bush announced his intention last year to withdraw from 
the ABM Treaty. Much to the chagrin of our fine President's critics, 
the sky did not fall--and President Putin made clear that this action 
would not harm U.S.-Russian relations.
    However, and this is important, the hope for more normal relations 
by the United States with Russia must not lead us to ignore that 
serious issues still must be resolved by our two countries.
    Russia must stop its proliferation to Iran, its human rights abuses 
in Chechnya, and its inclination to claim new spheres of influence.
    The health of Russia's democracy will depend on reinvigorating the 
rule of law and permitting an independent media to flourish.
    Thanks you, again, gentlemen for being here today.

    The Chairman. Thank you, and gentlemen, our biggest problem 
today--and I have been here a long time; I am going on my 30th 
year sitting here, and Senator Lugar about the same--is we 
have, as they said in the old B-movies, ``Smokey and the 
Bandit,'' what we have here is, ``we have ourselves a priority 
problem,'' and there are a number of things we would like to 
do, and I do not think anyone disagrees with the list that the 
President has set out and others have added to, but there is a 
matter of money and there is a matter of threat perception 
generally. I would just note that.
    Up at Davos in New York I met with the Foreign Minister of 
France, Mr. Vedrine for about an hour and a half at his 
request, and the point I tried to make to him when he talked 
about, he did not understand some of our policies, was that 
there is a genuine difference in the perception of what the 
threat is to each of our countries. I said, with regard to 
Iraq, for example, the American people and I think that Saddam 
Hussein has essentially painted a bull's-eye on the back of 
America and says, you are my target.
    The French do not feel that way. I understand why you do 
not feel that way, but understand this is a real threat to us, 
and I think the greatest threat to the alliance is how we 
arrive at determining whether or not our threat perceptions are 
similar, otherwise our interests will not be the same.
    So from cost standpoint and from a foreign policy 
standpoint, we have to prioritize much of what we do based upon 
what we think the threats are, and how real they are and how 
urgent they are, and so I am anxious to hear from both of you 
on that and anything else you wish to speak to.
    As a matter of protocol, the usual way we do this is, the 
majority's witness goes first, and the minority's witness goes 
second, but I do not consider it that way at all. I do not 
consider you either majority or minority, and so I would rather 
proceed in terms of seniority here, and so Secretary 
Weinberger, I would invite you to address the committee first, 
if you are willing, unless you guys have worked out a different 
way you want to do it.
    Dr. Perry. That is very agreeable to me.

  STATEMENT OF HON. CASPAR W. WEINBERGER, FORMER SECRETARY OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Weinberger. Thank you very much, Mr. Chairman. I do not 
think anybody is senior to me now, at least in age, so you 
probably have reached a proper compromise. I appreciate the 
honor of appearing before the committee, and appreciate also 
the nice comments that you and Senator Lugar have made.
    Senator Lugar and I go back a very long way. I actually 
used to be a Young Republican, although it certainly does not 
look like it now, and Senator Lugar was one of the people who 
was willing to come out all the way to San Francisco and help a 
struggling party at that time. He was an even younger 
Republican.
    I thought primarily the hearing was to be mostly of your 
interest in the nuclear posture----
    The Chairman. It is.
    Mr. Weinberger [continuing]. So I have prepared a few very 
informal notes about that. That was, as you know, a document 
required by the Congress, which requirement was met by the 
administration on time, and the Nuclear Posture Review was 
submitted, and basically it followed along with many of the 
points that you, Mr. Chairman, have made with respect to the 
changes that have occurred.
    It is important, however, to note that while there is a 
better relationship, there are still some causes for concern, 
because first of all they have many thousands of nuclear 
warheads, biological, because of the great lack of funds in 
Russia to maintain them, and they have used some of our 
basically unsupervised, unaudited economic aid for new weapons, 
they are constructing and working on new missiles, and we know 
that they began working on defensive measures within a very 
short time after they signed the ABM treaty agreeing not to do 
it 30 years go, so there are still some causes for concern, as, 
of course, their increasingly warm relationship with China and 
their continued opposition to most of the positions we take in 
international organizations.
    None of this is to detract from the fact that we do have a 
better relationship, we want one, and we have to ensure that we 
do everything we can to achieve that while at the same time 
being extremely careful to make sure that a sudden worsening of 
that relationship we would be prepared to deal with.
    The other conditions that have changed, I think, is that 
while the Russians have fewer nuclear weapons, and they want 
fewer nuclear weapons because they do not have the money to 
maintain what they have, even though they are working to 
acquire new ones and frequently using economic aid money to do 
that. The economic aid and the aid for carrying out Nunn-Lugar 
and all of the other things that are given to them should be 
audited and should be very carefully monitored, exactly as we 
did with the Marshall Plan. The Marshall Plan was called the 
most altruistic gesture in history, but every nickel of it was 
audited, every penny of it was monitored to make sure that it 
went precisely for the purposes intended.
    We are eager, however, to have nuclear arms reductions. 
President Bush offered unilaterally to take ours down to 
somewhere between 1,700 and 2,200 from something well over 
6,000, and that process is basically underway now.
    There are a lot of other countries, however, now that have 
nuclear weapons and nuclear programs, and that is another of 
the things that has changed since the end of the cold war. The 
count actually is that 12 nations have nuclear weapons programs 
underway now. And 28 have ballistic missiles on which the 
nuclear weapons and biological and chemical can be mounted, of 
course. And 13 nations have biological weapons, and 16 have 
chemical weapons, so it is a quite different world.
    The potential for evil has proliferated, if you like, and 
we are in a situation where we need to take into consideration 
all of the changes that have occurred, both good and bad. We 
are at last freed from the constraints on our ability to defend 
ourselves. June 14 is the date that I believe will go down in 
history as a sort of independence, because that is the day on 
which, under the 6 months' notice that President Bush gave 
sometime ago, we will be free to begin deploying and developing 
the strategic defenses, effective strategic defenses as soon as 
possible.
    We can and should do this as quickly as possible, because 
we need to make sure that we have the ability to defend 
ourselves against a much wider set of contingencies and 
possibilities than we faced before. You pointed out correctly, 
Mr. Chairman, that it was in some ways simpler with a single 
enemy, even though that was a very powerful enemy, an enemy who 
was intent on world domination, but we now have to deal with 
other changed circumstances, one of which is that there are 
these large number of other nations that I just listed that are 
working on many of the same capabilities, and that means that 
we will face multiple kinds of threats.
    One threat, of course, was September 11. There are many 
others, and it is essential that we move on a number of 
different fronts to modernize the triad, so to speak. The triad 
when I was there many, many years ago was simply ground-based 
and sea-based and air-based missiles that would have the 
capability of retaliating against an attack. It was basically 
considered in those days as an offensive deterrent. That was 
all we had. We had three different legs of it. We wanted to be 
survivable, and so we kept that degree of redundancy.
    Now we need, I think, to bear in mind that we are freed of 
the inability to use any defensive systems, will be on June 14, 
and from there on we are then able to add a different concept, 
a different framework to our triad, and that is, defense. We 
were forbidden to do that before. Now we can do that.
    We will also, I think, have to employ advanced conventional 
weapons, conventional weapons that are even more accurate and 
have basically other capabilities, such as going after 
differentiated targets, targets in caves, targets deep 
underground, targets that are heavily camouflaged, and in order 
to do this properly we will need to improve also, in addition 
to defense, the intelligence capability, particularly the 
HUMINT, the human intelligence capability, and our special 
operations. The special operations forces are made up of 
remarkable people who have done an extraordinarily good job in 
Afghanistan, and whose function is to pick out targets, to help 
the artillery targets be accurately placed, and to gather 
intelligence about what the enemy is possibly going to do.
    We need more of this, of course, and we need particularly 
to know if we can with human intelligence being able to 
penetrate and become agents who can become a part of these 
terrorist organizations who let us know well in advance what it 
is they are planning. That is the best defense of all, to know 
where and when they are planning to attack, and we are sadly 
not capable of doing very much of this at this time.
    So the new triad, then, would be a triad that included both 
the old triad--and I know there are some criticisms, as there 
constantly are, of course, about almost everything we do, but 
there is some criticism that we are abandoning a lot of the 
elements of the old triad, and we are not, and we should not. 
What we are doing is including them, incorporating them in a 
new triad which includes the old triad of defense and also 
greater emphasis on infrastructure, particularly on 
intelligence, command and control and communications.
    We have also said that we will go to the 1,700 to 2,200 
operationally deployed warheads by the year 2012. It is vital, 
I think, to preserve and keep many of the formerly, of the 
downloaded warheads just in case other threats arise, or 
countries that we were counting on turn hostile. There is a 
great deal of improvement--it is a great deal better, let me 
put it that way, to be able to revive downloaded warheads than 
it is to construct new ones if we should suddenly need them.
    Mr. Chairman, there are, of course, a tremendous number of 
other elements, as you indicated. Those are the ones I wanted 
to highlight, but based primarily on the Nuclear Posture Review 
I would be glad, after my distinguished colleague completes his 
statement, to try to take your questions, including the one 
that Senator Lugar posed a moment ago.
    The Chairman. Thank you very much, Mr. Secretary.
    Secretary Perry.

    STATEMENT OF HON. WILLIAM J. PERRY, FORMER SECRETARY OF 
  DEFENSE, MICHAEL AND BARBARA BERBERIAN PROFESSOR, STANFORD 
                    UNIVERSITY, STANFORD, CA

    Dr. Perry. Thank you, Mr. Chairman. A few years ago, Dr. 
Ash Carter and I wrote a book, ``Preventive Defense,'' which 
the chairman mentioned in his opening comments. The thesis of 
this book was that the end of the cold war marked an end to 
type A threats to the United States. Type A we defined as 
threats to the survival of the United States.
    But it also, we said, marked an increase in type B threats, 
threats of regional war, and therefore required maintaining a 
defense posture which has come to be called 2MRC, or the 
ability to deal with two major regional contingencies.
    We have to talk about that as a separate issue. The primary 
focus of the book was the emergence of what we called type C 
threats. Type C are the new threats to the homeland that could 
result in casualties comparable to those that America has 
suffered in major wars. We described several different kinds of 
type C threats. The first one was the reemergence of a major 
adversary and a restart of the cold war. Much of the book was 
devoted to a description of how to prevent that unfortunate 
contingency from developing. We concluded that a necessary but 
not sufficient condition was maintaining positive, constructive 
relationships with Russia and China.
    A second type C contingency would be the proliferation of 
weapons of mass destruction to hostile regional powers. The 
fear was that this could change their calculus of deterrence, 
or could even lead them to believe that they could blackmail 
the United States. Therefore, we said it was a high national 
priority to prevent such proliferation. We talked about ways of 
doing that through diplomacy with North Korea and Iran. To be 
sure, this might be coercive diplomacy, but nevertheless 
diplomacy.
    In the case of Iraq, we believed then and believe now that 
diplomacy will not be sufficient, that with Iraq we must take 
stronger action and be prepared to take military action, if 
necessary, to prevent proliferation.
    Now, for success in any of these diplomatic endeavors, even 
the course of diplomacy, a necessary but not sufficient 
condition is some cooperation of the other nuclear powers, 
including some cooperation with Russia and China, and I will 
return to that point before I finish my introductory remarks.
    The third kind of type C threat was a threat of what we 
called catastrophic terrorism. The entire chapter 5 in the book 
was devoted to a discussion of catastrophic terrorism. By that, 
we did not mean truck bombs. We meant a terrorist action that 
could result in casualties comparable to what Americans 
suffered in war. That was our definition of catastrophic 
terrorism.
    In this book we forecast that such an attack would happen 
in the United States within a few years, and we prescribed the 
actions to prevent such attack--not prevent, that is too strong 
a word, to minimize the possibility of such an attack.
    We also forecast that those actions would not be taken 
until after the first major attack occurred. Unfortunately, 
both of those forecasts have proven to be correct.
    The good news is that 9/11 and the subsequent anthrax 
incident were a wake-up call both to the public and to the 
government. The bad news is that 9/11 is not the worst that the 
terrorists are planning. We know that the terrorists are trying 
to get chemical weapons, biological weapons, even nuclear 
weapons, and if they get them no one--no one--should doubt that 
they would use them.
    Well, now that we are awake, and now that we understand 
that the worst is still ahead of us, what should we do? It 
seems to me that our government should make its highest 
priority, not just a priority, but the highest priority dealing 
with the threat of terrorists with weapons of mass destruction.
    What do I mean by dealing with? First of all, doing 
everything we can, taking every action we can to prevent the 
success of their operations and, second, understanding that 
that will not always be successful, being prepared to manage 
the consequence if the terrorist operation succeeds. I will 
talk about both of those, the prevention and the management of 
the consequences.
    First of all, prevention. No. 1 on my list are the 
antiproliferation actions we can take, especially 
antiproliferation of nuclear weapons. That will include 
investing new capital in antiproliferation programs, of which 
the Nunn-Lugar is the most prominent.
    Second, investing real political capital in getting serious 
cooperation from the other nuclear powers in this regard, in 
particular, serious cooperation from, Russia and China.
    And third is, being prepared to take coercive action 
against proliferators, and that could include military action. 
I have in mind here particularly the possibility of military 
action against Iraq, if we cannot prevent them from moving 
ahead with their programs to proliferate to nuclear weapons.
    The second prevention tactic is to dismember the terrorist 
bases and remove the governments that are hosting them. The 
operation in Afghanistan is exemplary in that regard. It not 
only serves the purpose of greatly diminishing the threat of 
al-Qaeda, but it also is a clear lesson to other nations who 
may be hosting terrorists.
    Third is to break up the terrorist cells around the world. 
This is a law enforcement function, primarily, but is an 
international law enforcement function, and therefore its 
success requires much greater cooperation with foreign law 
enforcement officials than we have previously had, and there 
should be a high priority to achieving that cooperation.
    Fourth is detecting and preempting terrorist operations 
before they occur. This is an intelligence function, and to 
succeed in it, it also requires much greater cooperation with 
foreign intelligence agencies than we have ever had, and I 
might say this, to be fully successful it will include 
cooperation with the intelligence agencies of Russia and China. 
To say the least it is countercultural for our intelligence 
agencies to effect such cooperation. Nevertheless it is very 
important.
    The fifth prevention area is to improve the protection of 
likely targets of terrorists. Commercial air is an obvious one. 
Nuclear reactors is another obvious one. Also, the ventilation 
system in public buildings is an important area. We are never 
going to be able to make all of these impervious to attack, but 
we ought to convert them from soft targets to hard targets.
    An example of a hard target in commercial air is the 
Israeli airline, El Al, which has made itself a hard target. No 
terrorist has succeeded in getting into El Al now for more than 
a decade, so it can be done.
    Incidentally, to the extent we are successful here, this is 
going to involve standardizing these approaches to foreign 
carriers as well as the United States carriers, because foreign 
carriers fly into American airports, Americans fly into foreign 
airports, so this is something that is going to also require an 
international effort.
    Now, in the consequence management area, it is especially 
important for biological and chemical weapons for two reasons. 
First of all, because it is so much harder to prevent 
terrorists from getting biological weapons. There are huge 
barriers to terrorists getting nuclear weapons. Those barriers 
do not exist in the case of biological weapons.
    Also, because good consequence management, fast response to 
a biological or chemical attack can dramatically decrease the 
number of fatalities that result from that attack.
    What are the things we can do in consequence management? 
First of all is stockpile antibiotics and vaccines that are 
necessary, and in that regard I am pleased to hear the 
government has decided to stockpile 300 million doses of 
smallpox vaccine by the end of the year. I think that is a very 
important step.
    Besides stockpiling vaccines and antibiotics, we should be 
developing new and more effective antibiotics and vaccines. In 
that regard, it is very important that we develop cooperation 
with other nations, and of the other nations who might 
cooperate, Russia is No. 1 on the list. There is every reason 
to believe that Russia is more advanced in this field than 
other nations, including the United States, for reasons that 
are not always attractive, but nevertheless important reasons, 
and therefore we should develop a cooperative program with 
Russia in this regard. We can benefit from it.
    Second, we should be organizing the pharmaceutical and 
medical industries and the first responders to biological or 
chemical attack. This can and should be done through the 
Centers for Disease Control.
    And finally, we should be organizing and training our 
National Guard, the National Guard in various localities to 
assist the first responders if and when the terrorist attack 
occurs in their region.
    I might mention parenthetically that cooperation with 
Russia on dealing with biological attacks could also be 
extended to include cooperation in dealing with other epidemics 
or pandemics, such as HIV, to the benefit of both countries.
    Now, what I have described here requires many actions on 
the part of our government, some of which I am happy to say are 
already underway. These actions require bold leadership, as we, 
for example, have demonstrated already in Afghanistan. These 
actions are going to be expensive, but I would say not as 
expensive as the 9/11 attack.
    They will be inconvenient. Anybody who has flown commercial 
air as much as I have flown it since 9/11 will understand what 
inconvenience means, but the point--and here is the point I 
want to emphasize. They will require for their success greatly 
increased cooperation with other nations, including greatly 
increased cooperation with Russia and with China. We can and we 
should lead in this regard, but we cannot go it alone. Whether 
we are talking about a military operation in Afghanistan, or a 
military operation in Iraq, we need the cooperation and support 
of other nations if not for military strength, at least for the 
bases and logistical support that are required.
    If we are talking about shutting down nuclear 
proliferators, proliferating material and technology, we need 
the cooperation of other nuclear nations, and in particular we 
need the cooperation, and serious cooperation, of Russia and 
China.
    If we are talking about shutting down terrorist cells, we 
need cooperation of foreign law enforcement officials.
    In detecting and preempting planned terrorist attacks, we 
need the cooperation of intelligence agencies of other 
countries, and in developing the most effective vaccine and 
antibiotics, we need the cooperation of other nations, 
particularly including Russia.
    So if we make the highest national priority dealing with 
terrorists and weapons of mass destruction, then we must make 
constructive cooperation with other nations the top priority. 
Certainly this includes cooperation with our allies, Britain, 
France, Germany, Japan, but it also includes cooperation with 
Russia and China, which is not always so easy to get; but real 
cooperation, especially real cooperation with those two 
countries will dramatically increase our security and therefore 
we should move seriously to efforts to create joint programs 
with them.
    Now, creating those joint programs may decrease flexibility 
and freedom of action we have in other areas. We have to weigh, 
make a balance between which of these will increase our 
security more. That should be the acid test. Does it increase 
our security, or does it not?
    On this last point of forming cooperative programs with 
other nations, I want to close with a quote as I remember it 
from Winston Churchill, talking about the importance of 
coalition, and he was, of course, referring to the World War II 
coalition which was critical to Britain's success in the war, 
but he was also talking about the difficulty of such 
coalitions, and his statement, as I remember it, is that 
coalitions are difficult because even allies sometimes have 
ideas of their own. That is the problem we will face in trying 
to form these cooperative programs. Our allies, our coalition 
partners will have ideas of their own, and we will have to 
decide when we have to accommodate those ideas and when we go 
it alone.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you both very much. With the permission 
of my colleagues, since we have a manageable group, could we do 
10-minute rounds, if that is OK, and again, thank you both 
first of all for being here. I realize it is not convenient. I 
realize how difficult it is, not just because it is 
inconvenient to fly, but you both have busy schedules and it is 
not easy, and I thank you very much, and I mean that sincerely.
    As usual, Secretary Perry, the professor in you is very 
much appreciated by me and my colleagues, because you are able 
to capsulize what I think is the single biggest dilemma we have 
here, and as you quoted Churchill, even allies have ideas of 
their own, as you both know, the disconnect in our capability 
and our NATO allies' capability, military capability is 
producing some dilemma.
    It is factually the case that without going into detail, 
and you both know it better than I, that some of our military 
folks, when asked the question in terms of planning particular 
operations, those including our NATO assets to greater increase 
our capability, in some cases it will degrade our capability in 
the sense that it slows us up, so we have had this debate.
    We have had this debate--I would say to my friend Senator 
Lugar, we have basically been on the same side of this issue. I 
am about to say that we had this debate in the Balkans. We had 
this debate about, we would come back here and everyone would 
bemoan the fact that in dealing with Kosovo or Bosnia, we had 
to check out with Chirac, or we had to check with Schroeder or 
whoever happened to be in power among our allies, and how 
tedious and time-consuming this was, and would it not be better 
just to move without them.
    But as you point out, there is a price to pay both ways 
here, and one of the things I hope we get over is this notion 
that there is an easy way, that we either just simply go it 
alone--and we should understand the price we pay when we go it 
alone. We may be able to solve the immediate problem more 
rapidly, and more convincingly, but it may create us other 
problems, and I think we are sort of--I would argue, Mr. 
Secretary, that that is one of the changes that is dawning on 
policymakers in this town on both sides of the aisle. They come 
down different ways.
    But this notion that there are tradeoffs, you talked about 
cooperation with Russia and China and joint programs, but they 
would decrease some freedom of action, and at the end of the 
day the question I keep coming back to is, whatever action we 
take, are we more or less secure? Are we better prepared, or 
less prepared to deal with whatever the threat is that we 
considered, and I would like to pursue that a little bit with 
you if I may.
    And obviously--and I have questions as well, Secretary 
Weinberger, for you, but if you want to chime in in any of 
this, I would rather this be a freeflowing conversation, and I 
would invite my colleagues, at least on my time, if they want 
to augment anything I have asked or said, because it is 
appropriate that moment to interrupt, and please do it.
    Mr. Secretary, or Secretary Perry, you laid out what you 
thought the single greatest immediate threat was and required 
the most immediate attention. Am I correct in assuming that 
that does not mean you think we should be doing other things as 
well, in addition to that? Your prioritizing is not an 
exclusive list. You think the single most important problem we 
face today is what you accurately characterize in your book, 
and the reason I like your book so much is, you prioritized, 
you laid out in clear fashion what you and Ash thought were the 
threats, the nature of the threats and what assets and 
attention should be directed to them in a timely fashion in 
which it should be and today you have amended it--not amended 
it, but you have emphasized that this third category, the 
category C threats require the most urgent attention. At least, 
that is how I understood your comments, and you indicate they 
will be expensive, inconvenient, and require cooperation with 
other nations.
    Talk to us for a minute about what kind of cooperation, 
what kind of agreements, whatever you want to phrase it, 
cooperation, we should be seeking at this moment from Russia 
and from China to deal with this proliferation threat, 
proliferation, as I understand you, more in the hands of 
international organizations, terrorist organizations, and in 
some cases in the hands of heads of state who are not 
particularly rational.
    What kind of cooperation in specific terms would you be 
looking to, and what other actions we are contemplating might 
be, our freedom to move in that direction might be decreased, 
and the tradeoffs you are willing to pay in terms of U.S. 
security interest?
    That is very broad, but I hope you understand the thrust of 
what I am trying to get at.
    Dr. Perry. First on the list is the cooperation which is 
basically the extension of the Nunn-Lugar program, where we and 
Russia cooperate in reducing the threat that their nuclear 
weapons and their nuclear technology and their nuclear know-how 
will get in the hands of terrorists.
    This has been a goal of the Nunn-Lugar program for 10 
years, and we have had dramatic success in it to this point, 
but I think we need more substantial effort along those lines, 
but that has to be a cooperative program. We cannot impose that 
on Russia. It requires their cooperation. Now, since it suits 
their interest also, it is relatively easy to get that 
cooperation in that field.
    Another example is the side of commercial nuclear 
technologies to other nations. For example, Russia is selling 
nuclear technology to Iran. This we are concerned will increase 
the risk of nuclear proliferation in Iran, the proliferation of 
nuclear weapons. Russia does not agree with that assessment. In 
this case, it does not suit their interests, because their 
commercial interests are very much in favor of making those 
sales, so that is much harder to get cooperation in that field.
    The Chairman. Can I interrupt at that point? Senator Lugar 
and I, among others--it is not unique to us, but the particular 
program we do not advertise as a be-all and end-all, is to deal 
directly with the Russians, and I have raised this personally 
with Mr. Putin, deal directly with the Russians on that 
economic interest side of the equation as well as with Iraq.
    For example, you have read, and you are aware that the 
Russians, whether they are able to be executed or not, have 
some significant contracts with the Iraqis, as well as with the 
Iranians to a lesser degree, that they view as a bonanza for 
them economically. It is estimated that the contracts 
theoretically are worth somewhere close to $40 billion over the 
next several years in Iraq, and that there is--and I ask 
Senator Lugar's staff to correct me, but I think their balance 
of trade on the positive side of the equation with Iran is 
several billion dollars a year, based upon the only thing they 
have to trade.
    They do not have many widgets people want to buy, and that 
maybe we should be in the business of being a little bit 
innovative here, and trading off the debt that is owed us, and 
even dealing with, as Senator Lugar has with our German friends 
and others, about it is to their benefit to deal with 
nonproliferation, as well as going to the Russians now and 
saying there is a way to work out a deal. You change your 
attitude toward Iraq, we will make sure you are in the mix when 
that oilfield is developed.
    We are not just going to take those contracts and award 
them to American companies, because those economic interests 
seem to be serious drivers of Soviet policy now, because, and I 
tend to believe him, as Putin said to me in response to a 
question, and I will end with this, he said, don't you think I 
understand, Senator, that a long-range missile developed by 
Iran is as likely to strike Moscow as it is to strike the 
United States, but yet they continue.
    So should we be exploring these different avenues that are 
somewhat unconventional, or is the price too high for that?
    Dr. Perry. In a word, yes. I do not have a formula how to 
deal with this problem, but I believe that the beginning of 
wisdom is understanding that this is an economic issue with the 
Russians, and therefore any success will have to be an 
economic-based approach.
    A third area of cooperation which might have some of the 
same elements is in the biological field, and Nunn-Lugar has 
never been successfully applied to biological weapons, and yet 
to me, that is probably as great a threat, if not a greater 
threat of terrorists getting biological weapons to use in the 
United States. Here the same basis for which the Nunn-Lugar 
program was set up for nuclear weapons applies to biological 
weapons.
    Two facets of it. First of all, you want cooperation from 
the Russians in guarding and protecting their biological 
materials, and know-how. That is just as important as it is in 
the nuclear field.
    And second, as I mentioned in my testimony, you want 
cooperation from the Russians in their ways of dealing with 
biological weapons where they may be more advanced than we in 
some respects. So all of those are very practical and important 
areas of cooperation with the Russians.
    I mentioned, incidentally, Russia and other nations' 
cooperation in the law enforcement field and the intelligence 
field, very important in the protection of terrorists, much 
greater cooperation than we have had in the past. I am 
confident that that can be achieved, but there might be some 
prices attached to it.
    The Chairman. Is your sense that they have reached the 
point, after September 11, that it is in their interests to 
cooperate in the biological and chemical side of the equation? 
Do you think they have had that epiphany?
    Dr. Perry. I believe so, but I have not been able to put 
that personally to a test. I can testify that when I was 
Secretary of Defense and tried to elicit cooperation with the 
Russians in the biological field, and tried very hard to elicit 
that cooperation, I was not successful. That is the only major 
lack of success I can point to in that field.
    Mr. Weinberger. Mr. Chairman, I did not want to interrupt 
the flow here, but I think it is important to deal with the 
thing Secretary Perry has been talking about. I think it is 
also important to bear in mind that our best intentions may be 
thwarted by actions that they take that we do not really even 
know about, or would not necessarily approve.
    Nunn-Lugar involved giving substantial amounts of money to 
them for specific purpose of helping to take down their nuclear 
weapons and then proliferation and all of that. As I understand 
it, they have used either directly, or because the money is 
fungible, indirectly, some of those funds at least for the 
procurement of very new and advanced weapons systems, including 
the submarine that went down, the Kursk, which was a very 
advanced, modern day submarine, things that do not necessarily 
help their economy, but indicate a continued concern about 
their need to watch them very carefully.
    All of these things should be done--you spoke about trust 
and verify a moment ago, and that in a very broadly applied 
sense is something that is vital to do. If we do not do it, I 
think we are going to find a lot of our mixed intentions 
frustrated by elements of one kind or another within Russia, or 
within China, using these things that they get for one purpose 
or another that is directly antithetical to the things we need.
    The Chairman. Thank you. I would yield to Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Weinberger is right money is fungible, but that 
is why the Nunn-Lugar contracts with American businesses to 
implement the dismantlement operations instead of the Russian 
Government. It is also important to recognize that most Nunn-
Lugar assistance takes the form of material and technical 
assistance, not money. It is difficult to imagine how a piece 
of equipment provided by Nunn-Lugar to cut up Russian strategic 
bombers can be used to modernize the Russian strategic nuclear 
force. Furthermore, let us not forget that the budget for the 
entire Russian Government was about $50 billion, and the 
defense budget was $7 or $8 billion, as opposed to our $379 
billion defense budget request. In other words, fungibility is 
a viable argument if one believes that Russia was going to 
perform the dismantlement in the absence of Nunn-Lugar funding. 
Without Nunn-Lugar, I do not believe Russia could have met its 
commitments under START I.
    It is not an argument against failing to verify. I think 
most of us, including Secretary Perry, were aware of this and 
reported consistently on new developments concerning our 
intelligence, and followed that closely. I saw an interesting 
article written by Fred Kemp of the Wall Street Journal Europe 
about the Davos conference, and he made the point that whereas 
it was anticipated that attendance might be down but as a 
matter of fact, most of the lectures were filled with people. 
Two years ago most of the people were executives from dot-com 
firms and electronics firms discussing the future. This year 
much of the audience were chief executives listening to people 
like the two of you.
    Now, one of the persons who spoke was our mutual friend, 
Zbigniew Brzezinski, and Kemp quotes Brzezinski as offering 
some generalized ideas about how the world is going. Brzezinski 
believes the United States will continue to grow in general 
power and authority in coming years, and the disparity between 
our power and authority and other countries' will become 
greater.
    Therefore, other nations might become increasingly 
resentful. Regardless of whether a nation is a friend or foe 
the rich were getting richer, namely us, and the rest are 
falling farther behind. He pointed out, like you have, that our 
threat comes from asymmetrical threats and not from the nation 
states that are growing weaker relatively, but subgroups who 
seek to harm us.
    Now, this is coincident with your testimony, because you 
talked today, and the chairman has, about how we gain 
cooperation. If the Brzezinski theory is correct, and people 
become more and more resentful as time goes on, we may say, 
well, we are simply tired of hearing all of this criticism and 
carping. You folks have got to pull your own weight, or we will 
have to turn to unilateral actions more often. Most of us would 
say that will not do, and it appeared to me when I visited with 
the NATO Permanent Representatives in Brussels last month that 
the alliance is not on the same page in terms of seeing the 
same threats.
    I think Secretary Perry made that point in his testimony: 
suggest horribly an airliner flying into the Eiffel Tower, or 
the House of Commons, or various other types of attacks. People 
will say, we appreciate the threat.
    And they also would suggest that they are less likely to be 
attacked than we are because of our disproportionately higher 
interest with regard to the world economic system. But Great 
Britain, Germany, France, Italy are all major countries with 
major economies, major interests, and to the extent that they 
begin to share the thought that there really is a problem here, 
then they are more likely to begin to think about cooperation 
with NATO in this case.
    But in the case of the Russians or the Chinese, in terms of 
our bilateral relationships, it just occurred to me as I 
listened to the testimony today that one of the great 
challenges for our diplomacy, whether it be at the State 
Department, Defense, Intelligence, or wherever, is really to be 
able to paint these scenarios of why we do have coincidence of 
interest, and why cooperation ought to be possible.
    Now, in some cases, as the chairman's questioning of 
Secretary Perry has pointed out, we have disparate interests. 
Russians may have a strong commercial interest, whereas we are 
worried about proliferation, even though they have a subsidiary 
interest in that, too, and we try to narrow the gaps between 
what seem to be national interests.
    And we may not be successful in every respect. That would 
be a miraculous thing, that all nations would have national 
interests that were coincident, but it just appears to me that 
we are going to have to narrow this gap very rapidly or we 
finally do get into a situation in which we are acting by 
ourselves, not because we wanted to, but because others do not 
see the threat. They do not have the resources. They have not 
been galvanized by the realism of the threat, and that is a 
very disturbing prospect.
    Just to take the Nunn-Lugar program as an example 
proliferation has been understood as a threat for a long time, 
but by and large most nations have not stepped forward and 
suggested we ought to make this a multilateral affair with the 
United States, share 25 percent, or 30 percent of the cost, or 
something of that variety.
    With biological and chemical weapons there is a possibility 
other nations will step up. Norway, Germany, Canada and the 
United Kingdom have stepped forward and pledged to contribute 
to chemical weapons elimination. There are other possibilities 
for nations to see proliferation of these weapons as a threat, 
and with terrorists who really might visit their countries with 
suitcases, or however they deliver them.
    Do you have any thoughts as to how we narrow the gap in 
terms of our national interest expectations, our sense of 
mutual threat, and do you agree with me that this is a 
promising area of inquiry with regard to priorities of our 
diplomacy as to how, in fact, we do narrow these gaps, because 
otherwise cooperation will be talked about frequently, but the 
parties involved may never come to the table?
    Dr. Perry. I would be happy to take a stab at that. Let me 
first preface it by saying that after the previous 
conversation, just to clarify the issue on Nunn-Lugar, since I 
administered that program for 4 years, we did not make grants 
or write checks to the Russian Government. That is not the way 
the Nunn-Lugar money was spent.
    What we did, we spent the money with contracts made to 
corporations, typically American corporations such as Bechtel, 
for example, which Secretary Weinberger is very familiar with, 
and that those contracts, as the Secretary rightly pointed out, 
were all audited contracts, and so the money was audited. It 
typically went to American contractors, and I want to 
emphasize, they were not grants and writing checks to the 
Russian Government.
    Now, on the question of the asymmetrical threat, and the 
disparity between the allies and the Americans on how to do it, 
I agree completely with your assessment that they do not see 
the same threat that we see, and that that is a real problem in 
developing cooperation with them, but I point out that before 
9/11, those same threats were unthinkable in the United States 
as well, and it is now part of our consciousness, so how do we 
deal with the problem with our allies? First of all we jawbone. 
We explain as well as we can why we believe what we believe, 
but we will still fall somewhat short.
    I think this problem, however, is unfortunately going to be 
a relatively short-term problem, because I believe that sooner 
or later there will be a 9/11 in Germany or France or the 
United Kingdom, and therefore it will be in their consciousness 
as well as our consciousness. In the meantime, we do the best 
we can in dealing with them.
    Mr. Weinberger. I think, Mr. Chairman and Senator Lugar, 
one of the problems is that throughout all democracies and all 
of the friends we have identified are democracies, there is a 
great dislike of spending money on the military, including the 
United States, and it takes a great deal of advocacy and a 
great deal of persuasion to bring that up.
    One example, the $48 billion increase which President Bush 
recommended this year is more than the entire defense budget of 
Germany, and when you talk about the fact that Russia is only 
spending perhaps $8 billion for their defense budget, we always 
have difficulty using the comparable terms, because the 
Russians are able to get a great deal more at far lower labor 
costs than we are, so that comparisons are difficult.
    There is no doubt, however, that the unhappiness with large 
defense expenditures translates itself into a minimizing of the 
threat, and that can happen not so easily after September 11, 
and it did not happen easily, and that is the reason NATO was 
so successful, was that that threat there from the Soviets was 
ever-present, was right there next to them, and it gave them a 
much greater incentive to meet the NATO contributions and so 
on.
    So it is going to be a difficult job. I think that it does 
require a great deal of advocacy and a great deal of emphasis 
on the kinds of threats that they face, even though the United 
States is there, and one of the reasons they do not feel it 
really necessary to spend all that themselves is because we do 
it and we do it very well, and we should do it. It is in our 
interests to do it. It is in our interests to have coalitions 
and to have alliances, but we need to work unceasingly at 
trying to persuade them that the alliances work best when both 
sides contribute.
    Senator Lugar. Thank you.
    The Chairman. Senator Nelson.
    Senator Nelson. We have had Senator Baker and White House 
Counsel Cutler here for a most engaging discussion, and I would 
like to have the value of your opinion. Do you think the 
present administration is doing enough to implement the Baker-
Cutler report?
    Mr. Weinberger. Oh, I think, as the chairman pointed out, 
along with a number of very large priorities, the answer would 
be yes. There are a lot of other things to do, and there are 
resources that are not totally unlimited, but when you look at 
all the things we have to do and all the new things we have to 
do, I think the answer to your question is yes.
    Dr. Perry. I have a different view on that. I think the 
Baker-Cutler report made some very positive and constructive 
recommendations, and I think we should do more to support those 
recommendations.
    Senator Nelson. In 1992, I had the good fortune of being a 
Fellow at the Kennedy School and met Ash Carter there, and at 
the time asked him, was he convinced that we were not in the 
disintegration of the Soviet Union, that we were not allowing 
materials to get out into dastardly hands, and he opined that 
yes, he thought that we were, but I have never been convinced 
of that, and now it is 10 years after I asked that question. I 
would like to have your sense about the proliferation out of 
the old Soviet Union of weapons or materials.
    Dr. Perry. I believe that against all odds we have been 
successful in keeping weapons, nuclear weapons proliferating 
out of Russia or the other nations of the former Soviet Union, 
but to the extent we have succeeded it has been because of 
programs like Nunn-Lugar which not only allowed us to work 
cooperatively with the Russian Government and the Ukrainian 
Government and so on, but most importantly, it performed 
programs which safeguarded those materials to a higher level of 
standards than they otherwise would have been.
    Having said that, though, I must say that we can never be 
complacent in this regard. The situation is still worrisome, 
and there could be a break. There could be a breach tomorrow, 
and it is something I always worry about.
    Probably one of my highest worries in terms of threats to 
the United States is, a nuclear weapon gets out somehow, gets 
out of Russia and into the hands of terrorists, so that is a 
worry, but I think we have been remarkably successful to this 
date. We cannot say with 100 percent confidence but with 
relatively high confidence I do not believe that any of those 
weapons have gotten into the hands of terrorists.
    Mr. Weinberger. I would agree, we cannot be 100 percent 
certain. I have worries about Russia's proclivities to sell 
things to Iran, and I think probably also to Iraq and to China, 
and it is one of the reasons that I advocated in my remarks a 
few moments ago that we be particularly careful in the various 
agreements we have made with Mr. Putin, and that it might well 
be a good idea to condition those a lot more on some kind of 
restraints on the sales that they make to countries which are, 
I think, not only potentially but actually hostile.
    Senator Nelson. Would your opinion be the same that we have 
had the success in the escape of brain power, i.e., the 
scientists as well?
    Dr. Perry. Yes, I believe so, and also I would point out 
the Nunn-Lugar program has made substantial contributions to 
setting up science programs within Russia that involve nuclear 
scientists, nuclear technicians in nonnuclear weapon programs, 
and therefore kept them gainfully employed in-country. I think 
in the absence of that program there would have been a 
hemorrhaging of intellectual talent and probably out of Russia 
into other undesirable countries.
    Senator Nelson. How do we get the leadership in today's 
Russia to understand that it is not in their self-interest to 
sell weapons and know-how to a country like Iran?
    Dr. Perry. I think they understand that, Senator Nelson, 
but I think they have rationalized that they can sell 
commercial nuclear technology and that there will not be any 
consequences from doing that. I do not agree with their 
assessment of that, but I think they rationalize themselves 
into believing that.
    Mr. Weinberger. I think that is a very kind way of phrasing 
it, but I think the simplest way to phrase it is, they do not 
understand dual use, or they pretend not to.
    I think also the problem is that there are a number of 
different elements within Russia that have dominance in 
particular fields, and I think certainly the commercial and 
trade elements would be able to prevail in any kind of internal 
argument over the idea that it would be much better in their 
overall national interest not to sell, because they continue to 
sell, and that is the worst of it of all.
    Senator Nelson. It kind of reminds me of some of the 
dominance of our commercial elements----
    Mr. Weinberger. There are plenty of them here.
    Senator Nelson [continuing]. In selling when it is not in 
the interest of the United States.
    Mr. Weinberger. They do, and I think we need to look at the 
provisions that we have for licensing and authorizing 
transfers. If the transfer is done against American lives. I 
think you will find it substantially reduced, particularly in 
these days.
    Senator Nelson. Thank you, Mr. Chairman. It is large part 
because of what I am learning and what I have learned about 
these questions that I have asked that I favor much more the 
granting of commercial licenses here in the United States from 
the State Department and from the Defense Department, instead 
of from the Commerce Department, for exactly the concerns of 
the transfer of technology to hostile hands.
    Mr. Weinberger. It has been 25 years since I dealt with 
those problems, but I would agree with you fully. The views of 
the Department of Defense were not always adhered to, and we 
had many long and distressing arguments with Commerce and 
others who wanted to sell anything to anybody anytime.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, and I want to thank 
these two outstanding witnesses. It has been wonderful 
listening to you all. I do not know Secretary Perry that well, 
but I do know Secretary Weinberger, who has been a great help 
to me from the days I was a member of the House of Delegates in 
Mr. Jefferson's district to while I was Governor, and I just 
want to say for everyone that Secretary Weinberger, you are one 
of my heroes.
    Mr. Weinberger. Thank you, sir.
    Senator Allen. I always have enjoyed listening to you.
    I would say to Secretary Perry that some of your remarks on 
bioterrorism were very apt yesterday in the Commerce Committee. 
I am the ranking member of the Subcommittee on Science, 
Technology, and Space, and looking at how we can use research 
from our universities, the private sector also working in a 
team effort with local, state, law enforcement, Federal law 
enforcement obviously, the hospitals and all the rest. It was 
very apt, and thank you for your testimony.
    Now, there was a comment made earlier by one of my 
colleagues in giving the impression that we need to narrow the 
gap between our country and other countries. To me, that is I 
suppose like a race, and you have a race for certain distance, 
and we are ahead by 10 paces, and so everyone is moving toward 
the finish line, but we want to narrow it.
    I always like to run like you are half a lap behind. It 
makes you run harder, and I think we need to, as Americans, 
always be looking at ways that we allow the people of our 
country to compete and succeed against anyone in the world, and 
so I am not worried about narrowing gaps.
    I want to make sure that Americans--it is not because we 
have a strong military, it is because we have a strong economy. 
That is how you pay for a strong military, but more 
importantly, as we advance in technological capabilities of our 
armaments and our equipment for our men and women in uniform so 
that it can be more precise, whether it is in our intelligence 
detections, or whether that is in our armaments for their 
safety, I think it is important that our economy continues to 
get stronger and not worry about others, or wanting them to 
catch up.
    I think that when you look at threats around the world, or 
competition, there are tremendous opportunities in Latin 
America, Central and South America and Central Europe and 
Southeast Asia. You look at the People's Republic of China, 
great opportunities there, only because their government is 
making some improvements as far as commerce, but the only thing 
holding back a lot of these countries is allowing people to 
have initiative, and allowing people to believe as they want, 
and private property rights.
    So we are only going to remain strong and have good quality 
of life and security if we continue what I would call 
Jeffersonian type principles of trusting to free people and 
free enterprise, and the way I look at the advancement, some of 
our foreign policy obviously helps advance not only our 
interest and our security and jobs in our country, and there 
are a lot of people who worry about international competition, 
especially in the textile industries, and only those who have 
the most advanced technology for manufacturing are the ones 
that are keeping those jobs going, in that they have better-
quality products, less waste, and everything else that matters. 
The same with communications services, and there is great 
opportunities in biotechnology for life sciences and health.
    Now, one area that is going to come up later this year is 
an expansion of NATO, and to me, NATO is clearly--and I am sure 
you would agree--primarily a defense military organization and 
alliance but it also signifies a commonality and understanding 
basic freedoms, individual freedoms, and with it comes 
commercial, or quality of life economic freedoms, and I would 
like to ask both Secretaries what are your views, whether you 
believe NATO should be enlarged--there will be that meeting in 
Prague later this year in November--and if so, what standards 
would you set for new membership in NATO?
    Mr. Weinberger. I definitely believe it should be enlarged. 
I think that NATO is one of our most important alliances. I 
think it has performed extraordinarily well, and that while we 
certainly may have made major contributions to it, and should, 
they were very well-rewarded, so I would agree that NATO should 
be enlarged.
    I was distressed by the fact that we kept three nations 
waiting about 3 years because we seemed to be worried about 
whether it would offend Russia or not. Poland, the Czech 
Republic, and Hungary are valuable members. They have been 
under the thumb of the Soviet Warsaw Pact for a long time. They 
wanted to join the West, and I thought they should be 
encouraged, and I think many of the newer applicants are in 
somewhat the same category.
    I do not think the enlargement of NATO should be viewed as 
a threat by anybody, unless that person or that country has 
hostile intentions in mind, because NATO is a defensive 
alliance, and it was with the greatest of difficulty that we 
ever persuaded any of the NATO countries to permit any 
operations out of the NATO area, and so they are not an 
offensive operation. They should not be viewed as a threat. 
They are an addition to the defense of the United States, and 
to the defense of freedom in the world, so my answer is 
unequivocally yes, I think they should be expanded.
    As far as conditions are concerned, again I think we should 
be very careful about setting very rigid or difficult 
conditions to make. It is far better to have countries in the 
alliance and work up to being able to make the kind of 
contributions that are needed than it is to put some kind of 
very strict entry bars and entrance fees and all the rest in 
front of them, and so I would minimize the requirements, and 
maximize the encouragement.
    Senator Allen. Thank you. Secretary Perry.
    Dr. Perry. I have a nuanced difference in my answer to 
that. I think NATO should be opened to enlargement, which is a 
somewhat different statement than Secretary Weinberger made, 
and the qualifications, and it should be open, then, to 
qualified nations.
    What do I mean by qualified? Well, when I was Secretary, I 
told other nations what I thought the qualifications for 
membership were. First of all, they must be a democratic 
nation. Second, it has to have a free market economy. Third, 
not involved in major border disputes with its neighbors.
    Senator Allen. Say that again.
    Dr. Perry. Not involved in major border disputes with its 
neighbors, and by the way, that was very critical in getting 
Hungary and Czechoslovakia to resolve the border dispute they 
had underway at the time.
    And finally, the ability to contribute to the NATO 
military. NATO is not an old warrior society. It is not a 
fraternity. It is a military coalition. Therefore, there has to 
be some minimum ability of a nation to contribute to that 
military capability.
    Those are the criteria I would put for membership.
    Mr. Weinberger. I would very briefly say that I think the 
more restrictions or restraints or rules you have for admitting 
into NATO, the more you overlook the desirability of having 
NATO large and strong, and capable of defense, and at the 
beginning we did not put any restrictions on anybody. We were 
delighted to welcome them.
    In fact, we begged Spain for years to come in without any 
conditions and finally they did, but if you put these 
restrictions on you are preventing the admission and potential 
improvement of a great many countries that we need, and if you 
had those restrictions in the past, neither Greece nor Turkey 
would have qualified.
    Senator Allen. For the countries we are considering, 
generally the Baltics and a few others, they seem to be 
democratic. They seem to be relatively free market. I am not 
sure about all the border disputes. The ability to contribute 
militarily, some of it is just a logistical matter. Some may 
have some ports, obviously, some can contribute a certain 
amount. We do not expect smaller countries to contribute as 
much as would, say, Great Britain, the wealthier or stronger 
economic countries. Do you see any of those that are being 
considered to have any of your conditions, Secretary Perry, as 
impediments?
    Dr. Perry. I think the countries you mentioned meet these 
tests, in my judgment.
    Senator Allen. Secretary Weinberger mentioned Russia, and 
saying Russia should not be worried about this. Do you think 
that Russia should be involved in in any way determining or 
discussing who should be joining the NATO alliance?
    Dr. Perry. No.
    Mr. Weinberger. No, I certainly do not.
    Dr. Perry. Some people have suggested that Russia and 
Ukraine might have actually become members. I would point out 
they do not meet the requirements I have pointed out at this 
time.
    Senator Allen. You are saying Russia and the Ukraine would 
not? Neither of you are suggesting that Russia join NATO?
    Dr. Perry. No. We may have different reasons. My reason is, 
they do not meet the criteria which I have indicated.
    Mr. Weinberger. Just a simple no is enough.
    Senator Allen. Thank you, Mr. Chairman. Thank you both, 
gentlemen, for all of your many years of service to our country 
and the cause of freedom. Thank you.
    The Chairman. One of the advantages of being chairman is 
you get to set the agenda and you get to turn the lights out, 
but I would like to, if I could, just for another few minutes 
trespass on your time a little bit more if I may, and would 
either of you like a cup of coffee or a drink? I would like to 
keep you for another 20 minutes or so, until 12. Is that OK? Is 
that possible?
    Mr. Weinberger. How long, Mr. Chairman?
    The Chairman. Until 12.
    Mr. Weinberger. That is fine.
    The Chairman. There are so many areas I would like your 
input on, and if I could begin with the Nuclear Posture Review 
that was mentioned earlier.
    In early January, the administration released the results 
of the Nuclear Posture Review, including the target reductions 
of 1,700 to 2,200 operationally deployed U.S. nuclear warheads 
by 2012. Pentagon officials talked about this as the end of the 
so-called threat-based nuclear posture, sized in the past to 
meet a Russian threat, and adopted instead what they called the 
capabilities-based approach, sized to meet any possible threat 
in the decades to come, but as I look at this review it is more 
notable for its absence of any real change.
    The goal of 1,700 to 2,200 operationally deployed U.S. 
warheads is lower than President Clinton's objective for START 
III only because we basically changed the counting rules. In 
any case, administration officials emphasize that this goal can 
shift any time, and defense officials indicate that we will 
maintain a sizable number of warheads in, quote, active reserve 
to respond to future contingencies, and only Russia has a 
nuclear force large enough to require us to maintain 2,000 
operationally deployed warheads, let alone hundreds or 
thousands more.
    So the review, as I look at it, does not change the fact 
that the U.S. nuclear arsenal will be continued to be sized to 
respond to potential Russian strikes, and if we maintain a 
sizable reserve of warheads Russia is likely to retain similar 
but perhaps less secure reserves, or stated another way, you 
say we are going to go down to 1,700 and 2,200 in the next 10 
years, but we will have anywhere from 100 to several thousand 
operationally ready warheads able to be deployed, and nobody 
suggests that I am aware of at the Pentagon that you need that 
many to deal with contingent threats, other than Russia, 
around.
    So it seems to me, based upon counting rules, we still have 
a Russian-threat-based system here, and what concerns me is, if 
the Russians attempt to maintain a similar stockpile of 
operational nuclear warheads, which they would be entitled to 
do, is there a concern about, or should we be concerned about 
the notion of how secure they are, and what foreseeable 
contingencies over the next 10 years require us to maintain 
what is likely to be a very large reserve of operational 
warheads able to be deployed very quickly? That is really the 
question. Either or both.
    Mr. Weinberger. Well, basically we used to size the force 
on the number of targets that were apparent to us, and were 
reported to us, targets that had the capability of destroying 
our own deterrent capabilities, and targets that were of 
military value.
    The Chairman. So called SIOP?
    Mr. Weinberger. Yes. These were in the Soviet Union, 
because the Soviet Union was the enemy, as you pointed out, so 
the Soviet Union is gone. That is not to say that there are not 
other potential enemies or actual enemies, so I do not know the 
basis on which the Nuclear Posture Review was calculated, but I 
think it was calculated on the basis of the capabilities that 
we had, as opposed to the idea of a specific number of targets 
we had to hit.
    Part of those capabilities are deterring other nations from 
even thinking they could try. Part of those capabilities are 
designed to ensure that if there was an accidental launch, or a 
temporary gaining control by terrorists or some rogue elements, 
that there was a launch of three or four, or something of that 
kind, that we have an ability to go back immediately and stop 
that from ever happening again.
    There are all different kinds of ways of counting these 
things, but the simple fact of the matter is that we now have a 
great many more potential targets that are not just in Russia, 
and are coming from areas like Iraq, and I think your 
description, Mr. Chairman, is a very apt one, that they painted 
a large bull's-eye on the back of the United States, and I see 
Libya in the same basic category, and Iran, and North Korea, so 
that all of these are elements that have to be considered in 
any sizing number.
    I would assume the various factors that went into 
calculating these things were all taken into account by the 
people who drew up the Nuclear Posture Review. It seems to me a 
very substantial reduction from the 6,000 to 7,000 we have now, 
and that the idea of keeping a ready reserve--and I do not know 
what the size of that would be, but I do not think it is 
several thousand.
    The Chairman. I do not know, either.
    Mr. Weinberger. I think it would be very few, but it is 
important to have a reserve in any kind of combat. You do not 
want to commit everything you have got and have nothing left, 
depending on how the tide of battle would change, or how it 
would flow, so all of these things are reasons why I think it 
is important to have some kind of ready reserve and some kind 
of capability, rather than building new ones or acquiring more 
warheads should we need them.
    The Chairman. Secretary Perry.
    Dr. Perry. Mr. Chairman, I favor the reduction that is 
postulated in the policy review. I prefer it at the lower end 
of the range rather than the upper end of the range, but more 
importantly, I prefer that we dismantle those weapons, not put 
them in reserve. We have weapons in reserve already, but we are 
talking about additional weapons in reserve.
    But my statement about dismantle is, I want to dismantle 
the Russians' as well as ours. I want to emphasize that point. 
I am not in favor of dismantling ours unless the Russians 
dismantle as well. That means, then, that we need some 
agreement by which we codify their reduction and our reduction, 
and some way that there is a commitment to both governments 
that that reduction takes place and is verifiable.
    And finally I prefer, greatly prefer that any weapons we 
have in reserve be well-secured, and that means my concern here 
is primarily about the Russians, because I believe ours are 
well-secured.
    Now, the contingency, you raise the question, what 
contingency would we need? The weapons that are going to be 
put, or additional weapons put in reserve, or dismantled, the 
only conceivable contingency I can think of is, we need to deal 
with some major change in government in Russia which leads them 
to want to reconstitute their nuclear weapons. But since we 
cannot do anything about or even predict how their government 
might change, the danger is attendant to their reconstituting 
their nuclear weapons. That is why I get back to the point that 
if we are going to destroy our nuclear weapons, we need to 
destroy or dismantle theirs as well, so the key here is the 
Russian dismantlement as well as the American dismantlement.
    The Chairman. If I can keep you on that line, if I may, 
without rehashing whether we should or should not have walked 
away from the ABM treaty, or formally noticed our getting out 
of it, one of the impacts of that was that Russia had ratified 
SALT II with the caveat that if we walk away from ABM they walk 
away from SALT, or START II, excuse me. I have been here too 
long--START II--and one of the things we spent a lot of time, I 
think justifiably giving credit to the Bush administration for 
Bush it was that START II required the Russians to destroy the 
one weapon we heard the most about, or I heard the most about 
in my career here, the SS-18 and other mobile warhead weapons, 
and the rationale, for the record--and I know you both know it 
better than I.
    The rationale was that it related to crisis stability. If 
we know they have one weapon with 10 independently targeted 
warheads that has a capacity, each one of those warheads, that 
far exceeds the capacity of the combined effect of Hiroshima 
and Nagasaki, then that has to be a target for us when we look 
at targeting.
    The other side knows it is a target. Therefore the other 
side knows, in a moment of crisis, if they do not use it, 
quote, they lose it. At least that has been the operational 
theory we have worked on, those of us who have tried to master 
strategic doctrine for sometime.
    Now, with that abandonment of ABM and with evidence from 
the National Intelligence Estimate that we have gotten here, on 
the ballistic missile threat to the United States, the reports 
are that Russia has begun a life extension program on those 
aging multiple warhead missiles, and so is--and when I ask, and 
Secretary Rumsfeld as well as the Secretary of State yesterday 
have basically said--and I will not quote them, because I have 
it and I cannot find it--basically said, well, so be it, that 
is not our problem. That is not a problem.
    Now, does the goal of eliminating, Secretary Perry, 
multiple warhead ICBMs no longer matter, or should we try--
notwithstanding the fact there is no formal agreement now, 
should we try to maintain or achieve the goals set out in START 
II with the Russians as we enter this new relationship with the 
President and President Putin having agreed to move down to 
levels of 1,700 to 2,200 warheads?
    Dr. Perry. Mr. Chairman in short I believe the crisis 
stability still should be a goal of the United States, and I 
believe the land-based MIRVs, like the SS-18, aggravate the 
problem of crisis stability, therefore it should be a goal to 
get rid of those weapons.
    Having said that, let me say that I believe the situation 
with Russia today is very, very different from the situation 
with Russia or the Soviet Union during the cold war, and the 
reasons, the ways of looking at crisis stability are very 
different. Nevertheless, I think we still have to have a 
concern for crisis stability, and we have to be concerned with 
the fact that the government in Russia could change a year from 
now, 5 years from now. In the meantime, the weapons still 
persist, so I do believe that this is an issue that should have 
our attention and concern.
    The Chairman. Secretary Weinberger, you mentioned before, 
and just stated by Secretary Perry, that there could be a 
change in Russian attitude or the Russian Government and the 
need to, as we are talking about the Nunn-Lugar kind of 
initiatives, to be able to verify. Do you think we should be 
able to verify nuclear agreements that we have with the 
Russians? Should they be verifiable, or is it sufficient that 
we just unilaterally say, and they say, this is what we are 
going to do, but without any verification regime tied to it?
    Mr. Weinberger. There are two or three answers to that, Mr. 
Chairman. One is that the verification regime itself has to be 
airtight, and it is almost impossible to construct an airtight 
verification regime, because they simply can deny access, as 
Iraq has done repeatedly, or they can use other facilities to 
construct other things and so on.
    Your earlier linkage of the abandonment of the ABM treaty 
to their extension programs and all the rest brings to my mind 
a question as to, if the ABM treaty was so instrumental in 
preventing proliferation, why do we have this enormous 
expansion of nuclear weapons and attempts to get nuclear 
weapons all the time the ABM treaty has been in effect?
    My own feeling has been that if you tell a country and you 
tell the world that there is one class of weapons that is never 
going to be defended against, that is going to encourage all of 
the hostile elements everywhere to try to get that class of 
weapons, so I think the greatest factor for proliferation is 
keeping a defenseless regime, which is what the ABM treaty 
guaranteed, and so I think the abandonment of the ABM concept, 
and the ABM treaty, is not only a very beneficial but a very 
wise thing to have done, and I hope we will proceed with the 
second half, which is to acquire the capable effective defenses 
as quickly as possible.
    The Chairman. Well, in the interests of time, as I 
indicated in my statement, without talking about the merits or 
demerits of the decision, I was anxious to see what the 
attitude was about this notion of crisis stability, but let me 
move on in the interest of time here.
    Secretary Perry, obviously, things have changed a bit in 
terms, at least attitudinally, between the United States and 
North Korea over the last year or so, and I suspect they have 
changed even more, arguably, possibly better. I do not think 
so, though.
    In terms of the President's State of the Union Address, 
what would you be doing now to try to promote a more sensible 
North Korean policy on long range missile production, not 
production but development on proliferation and on North 
Korea's relations with South Korea? Where would you be trying 
to take this now, in light of where we are at the moment?
    Dr. Perry. Mr. Chairman, I would start off by saying that 
nuclear weapons in the hands of North Korea I think is a 
danger, an unacceptable danger to the United States, and we 
should take every reasonable action to try to keep that from 
happening.
    During the time I was Secretary, the actions we were 
considering taking included the threat of military action, and 
we were very close to military confrontation with North Korea 
over the nuclear weapon program in 1994. Happily, that did not 
lead to military action. It was resolved, finally, by a 
diplomatic action. To be sure, a coercive diplomatic action, 
but nevertheless, a diplomatic action, and so that was a 
satisfactory resolution to what otherwise could have been a 
very dangerous situation, and so that is No. 1 on my priority.
    Adding their development of a long-range missile program 
simply adds to the concern there, but I wanted to hasten to say 
the missile itself is not a problem unless they have a nuclear 
warhead for it, and the nuclear warhead is a problem even if 
they do not have the long-range missiles, because there are 
other ways of delivering nuclear warheads, so my emphasis has 
always been on the nuclear weapon and less on the missile.
    If they were to develop missiles, there are a variety of 
ways of defending against them. We have talked about midcourse 
defense system, we have talked about boost phase defense 
system. My own favorite is pre-boost phase defense systems.
    The Chairman. That is mine as well, preemptive.
    Dr. Perry. I think if I had any influence on the policy 
today, I would be first of all stressing a robust diplomatic 
program to get the North Koreans to voluntarily give up their 
long-range missile as well as their nuclear program, and I 
thought a little over a year ago we were within a hair of 
having such an agreement, and could still get such an 
agreement, I think. Second, if that were unsuccessful, and they 
persisted in moving forward with long-range missiles that 
threaten the United States, and ICBMs, I would favor a pre-
boost phase defense system, which I think would be very 
effective.
    Mr. Weinberger. Mr. Chairman, just a very short comment. I 
do understand the time, but the problem is that I think it 
would be extremely easy to get an agreement with North Korea, 
and I think it would be absolutely worthless.
    I do not think it is a government you can trust, and I do 
not think anything they promise can be expected to be kept, and 
I do not think there is any verification that is going to work 
with them. I think the change of the regime is the only 
solution, and that is a pre-boost phase arrangement, so perhaps 
I am in agreement with Secretary Perry on that, although I 
rather doubt it, although I think that changing the government 
is the only solution to a government like North Korea.
    The Chairman. Well, speaking only for myself, I hope the 
President's reference was merely to a pre-boost phase 
rationale, rather than to another, but time will tell that.
    If I may ask and explore one more area, even if I miss this 
vote, and that is, over the past years President Bush and other 
officials have sought to reassure China that our missile 
defense will be intended to defend against rogue states rather 
than China, and they constantly say this is not about China. 
The fact remains that the defense intended to defend against 
rogue states could have, at least for the present structure of 
the Chinese nuclear deterrent, could have a nuclear deterrent 
effect. At least if you are sitting in Beijing you might think 
that.
    Now, what concrete steps could the United States take as it 
develops this nuclear defense architecture to respond to or to 
emphasize or to make clear that our assertions meet our 
actions, that they should not be threatened, and No. 2, should 
we be concerned about the impact that the reciprocal action 
taken by China, what impact they might have on the nuclear 
architecture in Asia?
    If they go into a massive new effort, and arguably they are 
already doing some of that anyway, are you concerned about the 
reactions in India or Pakistan or Japan, for that matter, in 
terms of relying upon our nuclear umbrella, if you will, and so 
the first question is, what can we do, or should we do, if 
anything, to reassure the Chinese that our architecture for 
national missile defense is what we say it is, not directed at 
them, because that is what President Bush keeps saying?
    Mr. Weinberger. Mr. Chairman, a missile defense program is 
not directed against anybody. A missile defense program is only 
directed toward protecting the United States.
    The Chairman. Then let me amend what I said. President Bush 
has said he has attempted to reassure the Chinese that any 
missile defense system we have would not impact on their 
nuclear deterrent capability. He has gone further than saying 
it is not intended. He has gone on to say, to be reassuring 
them that it would not affect their deterrent capability.
    Mr. Weinberger. A missile defense program can only be 
opposed by somebody who has an offensive intention in mind. If 
you have no offensive intention in mind, the fact that we are 
building a defense should not be of alarm to anybody.
    The Chairman. Well, that sounds good, but what happens if 
overnight, and it is not realistic at all, but if all of a 
sudden Russia or China developed a system that could defend 
against all of our nuclear weapons, I think we might change our 
mind about whether or not--and we have no offensive intention, 
but if we knew that there was no possibility of us being able 
to respond to an attack by them with nuclear weapons, I suspect 
it might change the way we view the world.
    Mr. Weinberger. That is a hypothetical which I am really 
not prepared to follow.
    The Chairman. For us it is a hypothetical. For them, it is 
a realistic possibility, but in any event, Secretary Perry, 
would you be kind enough to respond?
    Dr. Perry. Any national missile defense system that is 
being seriously considered, if it is effective, would be 
effective against the Chinese missiles. The only system I can 
conceive of that would offer some level of defense for the 
United States without affecting the Chinese system would be a 
ground-based boost-phase system. I do not advocate that because 
a ground-based boost-phase system unfortunately is ineffective 
against other systems you want it to be effective against, 
because it cannot reach many of the targets we are concerned 
with, so that would be my answer to the question.
    Mr. Weinberger. Mr. Chairman, again, it is exactly the 
dilemma, if you build something that is of no concern to and 
does not worry the Russians and does not trouble the Chinese, 
you are building an ineffective system.
    The Chairman. Why, then, Mr. Secretary, does the President 
and Secretary of Defense and Secretary of State keep telling 
the Chinese, do not worry, this will not affect you? I guess 
they do not mean it, right?
    Mr. Weinberger. They are in power. They have the ability to 
set policy. I am an individual who is 20 years out of any 
cycle, so they are the people you should listen to if you want 
the administration policy.
    The Chairman. That is a very accurate comment, and I do 
appreciate it. I am sorry that--and I am sure you all are not, 
because we have kept you so long, but I am sorry you have not 
had a chance to get to a number of other issues that I would 
like to discuss with you, gentlemen, including outer space and 
the weaponization of outer space, and the nuclear test ban 
treaty and whether it has any relevance any more, but maybe if 
you are willing, if I could just send you one or two questions, 
without burdening you with more than one or two, I would 
appreciate it if you would be wiling to answer them.
    Mr. Weinberger. I would be delighted to try.
    The Chairman. I thank you both very, very much. I consider 
it an honor to have you both before us, and I thank you for 
your time, and we are adjourned.
    [Whereupon, at 12:05 p.m., the committee adjourned.]
                              ----------                              


                   Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this important hearing. The 
horrific events of September 11 brought into sharp focus that the 
threats of the 21st century are far different from the threats of the 
last century. During the 20th century, our adversaries were easily 
named and contained within defined national borders. The adversaries 
that our men and women in uniform are currently fighting belong to 
mobile, well-financed terrorist cells that do not have a centralized 
structure and exist in the shadows around the world, and even in our 
own country. This new kind of enemy challenges our conception of 
traditional warfare and demands a different kind of response, and a 
different strategic framework.
    While we should allow our strategic framework to evolve to meet the 
challenges of the 21st century, we should be careful not to undermine 
the foundation of carefully structured arms control agreements that 
supports our strategic relationship with the rest of the world.
    I am concerned that unilateral withdrawal from the 1972 Anti-
Ballistic Missile Treaty could seriously weaken the United States' 
ability to pursue our most urgent foreign policy priorities. This 
unilateral action could dramatically alter our strategic relationship 
with Russia, and gut the underpinnings of the global arms control 
regime. And it is all the more troubling that the President announced 
his intention to withdraw the United States from this important treaty 
without seeking support from the Senate.
    At a time when our global strategic relationships are of paramount 
importance, we should do nothing that could risk undermining the 
strength and staying power of the global coalition against terrorism.
    In addition, we should take further steps to combat the 
proliferation of weapons of mass destruction and to thwart the attempts 
of terrorists and states of concern to acquire nuclear, chemical, and 
biological weapons and the means to deliver them. We should ensure that 
our export control regime prevents sensitive dual-use technologies from 
being exported to countries of concern, and we should urge our allies 
to do the same.
    Finally, we should proceed cautiously with the planned national 
missile defense system. While I have not opposed legislation 
authorizing development of a missile defense system, I have serious 
concerns about the Bush Administration's aggressive proposal. We should 
not close the door on options for defending the United States against a 
possible missile attack, but we must ensure that the system that we 
eventually choose is cost-effective and will actually work, I will 
continue to scrutinize carefully the progress of this system and the 
price that taxpayers will be asked to pay for it.


</pre></body></html>
